ES, IG-98-007, Contractor Facility Leases
CONTRACTOR FACILITY LEASES
IG-98-007
Executive Summary
Background
Contract awards with commercial
organizations sometimes require contractors to acquire facilities to perform
government work.  NASA's Office of Procurement (Code H) and installation
procurement divisions are responsible for carrying out the acquisition
process which includes complying with applicable contract regulations and
evaluating contractor facility costs.
According to the Federal Acquisition Regulations (FAR), lease costs for
facilities are an allowable cost, but must be reasonable (FAR 31.205-11 and
31.205-36).  FAR implements requirements of the Financial Accounting
Standards Board for recording the costs of leased facilities.  A leased
facility can be classified as either a capital lease (i.e., treated as a
purchased asset and depreciated) or an operating lease (i.e., treated as an
expense).
Objectives
The audit objective was to determine whether NASA is adequately managing
facility leasing.  Specifically, we answered the following questions:
Were contractor facilities effectively utilized?
Were contractor facility leases correctly classified?
Did contractors accurately bill lease costs to the government?
Additional information on objectives, scope, and methodology is shown in
Appendix 1.
Results of Audit
NASA's management of facility leasing can be
improved.  The lease costs billed to the government were accurate; however,
a significant number of contractor facilities were not effectively utilized.
In addition, four contractor leases were not correctly classified.  For the
82 leases reviewed, we found NASA could spend over $13.7 million needlessly
over the remaining life of the leases or contracts with the prime
contractors.  However, NASA has already taken action on seven facilities
with idle space and may realize a savings of approximately $4.5 million.
Management Action During the Audit
During the audit, we issued a rapid action report on two leases at the Lewis
Research Center.  For one leased facility, the contractor submitted a
$164,000 proposal to NASA for reconstruction work; however, we found that
the City of Cleveland was planning to purchase the same building as part of
an airport expansion project and destroy it to make room for a runway
expansion.  NASA canceled the reconstruction work and saved the $164,000.
On a second leased facility, a contractor requested NASA to pay
refurbishment costs of $1 million.  The original documentation called for
refurbishment costs of $250,000, and we found no documentary evidence to
support the increased costs.  Management subsequently received an estimate
for $470,000, which would save $530,000.  Negotiations for a final cost are
on-going.
Recommendations
We recommend that the Associate
Administrator for Procurement direct contracting officers to:
reevaluate the facility requirements for those contractor sites
with idle space,
review the allowability of costs for those leases that have
substantial idle space for over one year,
request DCAA to include FAS 13 analysis in their full cost
proposal reviews, and
review the classification of the specific questioned leases to
ensure that leases are appropriately classified, and if not, take
corrective action as required; including determining the allowability
of costs.